No. _ _ __
In The
Supreme Court of the United States
/J.

BLANCA ARIZMENDI,
Petitioner ,
V.

PATRICK GABBERT SGT., Individually and in
his official capacity as Criminal Investigator,
Respondent,
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Fifth Circuit
/J.

AMENDED PROOF OF SERVICE
I declare t hat: I am a resident of Cayucos, California. I am over t he age of
18 years and not a pa1·ty t o the within ent itled cause. My n ame a nd a ddress is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430..
On August 28, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following docume nt(s):
1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY l\![A.IL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with t h e U nited States Postal Service wit h post age prepaid at
At ascader o, California . The envelope was a ddressed and mailed as follows:

Charles S . Frigerio
Law Offices of Charles S. Frigerio, P C
111 Soledad Street, Suite 840
San Antonio, Texas 78205
I declare under the penalty of perjury th at the foregoing is true and correct.

DATED: 08-30-2019
Dorothy Kleinhammer
Nam e of person completing t his form

~~=----:.....:...=..:::~-~______:_------=--- : . . . . . . . ~

(signature of person comp e ting this form)

No. _ _ __
In The
Supreme Court of the United States
(j

BLANCA ARIZMENDI,
Petitioner,
V.

PATRICK GABBERT SGT., Individually and in
his official capacity as Criminal Investigator,
Respondent,
On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Fifth Circuit
/\

AMENDED PROOF OF SERVICE
I declare that: I am a resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cause. My name and address is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430..
On August 29, 2019, I served the following document(s):
1. PETITION FOR WRIT OF CERTIORARI

( ) BY PRIORITY MAIL: Depositing a true and correct copy t hereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as follows:
(X) ELECTRONIC EMAIL SERVICE

The following Counsel for the Appellant email addresses has also been
ELECTRONICALLY served: frigeriolaw 1995@sbcglobal.net
csfrigeriolaw@sbcgl obal.net
jvasq uez56@sbcglobal. net
I declare under t he penalty of perjury that the foregoing is true and correct.
Executed on August 30, 2019, at Atascadero, Cali£
DATED: 08-30-2019
Dorothy Kleinh ammer
Name of person completing t his form

